LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

March 19, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 19-1029 : BETHANY AUSTIN V. STATE OF ILLINOIS
Dear Sir or Madam:
I hereby certify that at the request of counsel for Amici Curiae American Booksellers
Association, Association of American Publishers, Inc., The Authors Guild, Inc., Comic Book
Legal Defense Fund, Freedom To Read Foundation, Media Coalition Foundation, Inc., and
National Press Photographers Association , on March 19, 2020, I caused service to be made
pursuant to Rule 29 on the following counsel for the Petitioner and Respondent.
PETITIONER:
Robert Lawrence Corn-Revere
Wright Tremaine, LLP
1919 Pennsylvania Ave., NW,
Suite 800
Washington, DC 20006
202-973-4225
bobcornrevere@dwt.com

RESPONDENT:
Kwame Raoul
Attorney General of Illinois
Jane Elinor Notz
Solicitor General
Michael M. Glick
Criminal Appeals Division Chief
Garson S. Fischer
Assistant Attorney General
100 West Randolph Street, 12th Floor
Chicago, Illinois 60601-3218
(312) 814-2566
eserve.criminalappeals@atg.state.il.us

This service was effected by depositing three copies of the Brief of Amici Curiae
American Booksellers Association, Association of American Publishers, Inc., The Authors
Guild, Inc., Comic Book Legal Defense Fund, Freedom To Read Foundation, Media Coalition
Foundation, Inc., and National Press Photographers Association in an official “first class mail”
receptacle of the United States Post Office as well as by transmitting a digital copy via
electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 19th day of March 2020.

